<html>
<title> - WASTE AND ABUSE IN NATIONAL GUARD SPONSORSHIP AND MARKETING CONTRACTS</title>
<body><pre>[Senate Hearing 113-412]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 113-412

 
 WASTE AND ABUSE IN NATIONAL GUARD SPONSORSHIP AND MARKETING CONTRACTS

=======================================================================

                                HEARING

                               before the

                     SUBCOMMITTEE ON FINANCIAL AND
                         CONTRACTING OVERSIGHT

                                 of the

                              COMMITTEE ON
                         HOMELAND SECURITY AND
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 8, 2014

                               __________

         Available via the World Wide Web: http://www.fdsys.gov

       Printed for the use of the Committee on Homeland Security
                        and Governmental Affairs

                                 ______

                   U.S. GOVERNMENT PRINTING OFFICE 
89-682                     WASHINGTON : 2014
____________________________________________________________________________ 
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="5631263916352325223e333a267835393b78">[email&#160;protected]</a>  


        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                  THOMAS R. CARPER, Delaware Chairman
CARL LEVIN, Michigan                 TOM COBURN, Oklahoma
MARK L. PRYOR, Arkansas              JOHN McCAIN, Arizona
MARY L. LANDRIEU, Louisiana          RON JOHNSON, Wisconsin
CLAIRE McCASKILL, Missouri           ROB PORTMAN, Ohio
JON TESTER, Montana                  RAND PAUL, Kentucky
MARK BEGICH, Alaska                  MICHAEL B. ENZI, Wyoming
TAMMY BALDWIN, Wisconsin             KELLY AYOTTE, New Hampshire
HEIDI HEITKAMP, North Dakota

                  Gabrielle A. Batkin, Staff Director
               John P. Kilvington, Deputy Staff Director
               Keith B. Ashdown, Minority Staff Director
                     Laura W. Kilbride, Chief Clerk
                   Lauren M. Corcoran, Hearing Clerk


          SUBCOMMITTEE ON FINANCIAL AND CONTRACTING OVERSIGHT

                       CLAIRE McCASKILL, Chairman
CARL LEVIN, Michigan                 RON JOHNSON, Wisconsin
MARK L. PRYOR, Arkansas              JOHN McCAIN, Arizona
MARY L. LANDRIEU, Louisiana          MICHAEL B. ENZI, Wyoming
MARK BEGICH, Alaska                  KELLY AYOTTE, New Hampshire
TAMMY BALDWIN, Wisconsin

                 Margaret Daum, Majority Staff Director
                 Rachel Weaver, Minority Staff Director
                       Kelsey Stroud, Chief Clerk


                            C O N T E N T S

                                 ------                                
Opening statement:
                                                                   Page
    Senator McCaskill............................................     1
    Senator Johnson..............................................     3

                               WITNESSES
                         Thursday, May 8, 2014

Major General Judd H. Lyons, Acting Director, Army National 
  Guard, National Guard Bureau...................................     4
Kathy A. Salas, Principal Assistant Responsible for Contracting, 
  National Guard Bureau..........................................     6

                     Alphabetical List of Witnesses

Lyons, Major General Judd H.:
    Testimony....................................................     4
Salas, Kathy A.:
    Testimony....................................................     6

                                APPENDIX

Documents Senator McCaskill, submitted for the Record............    19
Responses to post-hearing questions for the Record:
    Mr. Lyons....................................................    84
    Ms. Salas....................................................   186
    Mr. Lyons and Ms. Salas from Senator Johnson.................   187


 WASTE AND ABUSE IN NATIONAL GUARD SPONSORSHIP AND MARKETING CONTRACTS

                              ----------                              


                         THURSDAY, MAY 8, 2014

                                 U.S. Senate,      
        Subcommittee on Financial and Contracting Oversight
                      of the Committee on Homeland Security
                                        and Governmental Affairs,  
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 3:05 p.m., in 
room 342, Dirksen Senate Office Building, Hon. Claire 
McCaskill, Chairman of the Subcommittee, presiding.
    Present: Senators McCaskill and Johnson.

             OPENING STATEMENT OF SENATOR MCCASKILL

    Senator McCaskill. Good afternoon. Thank you for being 
here.
    Before I do anything else, I am going to turn off my phone 
because if I do not it will ring.
    This hearing will now come to order.
    Before I say anything else about the topic that is in front 
of us today, I want to state for the Record that I really like 
the National Association for Stock Car Auto Racing (NASCAR), 
and I love the National Guard more than I like NASCAR.
    So this hearing is not about demonizing NASCAR or the 
National Guard. This hearing is simply about return on 
investment of Federal tax dollars, whether or not Federal money 
is being used wisely for the intended purpose and getting the 
result desired as a result of that investment.
    Every year, the Army National Guard (ARNG), like all 
military services, sets a recruiting goal before beginning to 
recruit thousands of new soldiers to meet its force 
requirements. The Army National Guard attempts to meet its 
goals, in part, by sponsoring professional sports teams.
    This year, the Guard will spend over $56 million on sports 
marketing like NASCAR and IndyCar. The Guard's contract with 
NASCAR alone amounts to $32 million. The Army National Guard 
spends 37 percent of its marketing and advertising budgets on 
sports sponsorships.
    According to one National Guard recruiting official, 
however, not a single National Guard soldier was recruited from 
the NASCAR sponsorship program in 2012 and the program 
generated fewer than 8,000 leads in 2013. That may sound like a 
lot, but it is a far cry from the one million leads the 
National Guard has estimated that it needs in order to meet its 
recruiting goal.
    One reason these sponsorships may not be generated leads is 
they may not be reaching the right demographic, which for the 
National Guard is primarily young adults between the ages of 18 
and 24. Only 10 percent of NASCAR's viewers are between 18 and 
24, and the average age of an IndyCar fan is between 35 and 54.
    I am a fan of NASCAR myself, but I do not think this is 
exactly the demographic that the National Guard is aiming for.
    Other sponsors for NASCAR include soda companies, fast food 
restaurants and gas stations, but the decision to wear the 
uniform is much more complicated than choosing a Coke or a 
Pepsi.
    Partly for these reasons, the Guard has recently begun to 
characterize its sponsorship of NASCAR and IndyCar teams as 
``branding'' rather than recruiting.
    The National Guard has told the Subcommittee that it relies 
on its relationships with NASCAR and IndyCar to promote 
awareness and appreciation of the Guard brand, generally.
    However, widespread disagreement exists in the marketing 
industry over how to value the impressions, meaning the number 
of people who view an advertisement and the number of times 
they view it that are necessary to build and maintain a brand. 
In part, because of this difficulty in tracking the 
effectiveness and value of brand advertising, the private 
sector trend has been to move away from spending on simply 
brand awareness.
    The Army, the Navy, the Marine Corps and the Coast Guard, 
all of which used to sponsor NASCAR, have all decided to end 
these programs.
    The regular Army ended its sponsorship with NASCAR in 2012 
after concluding that the program had the highest cost per lead 
in the Army's portfolio of sponsorships. The Army also cited 
the fact that only a small portion of the NASCAR audience fell 
within its target demographic.
    The Marine Corps made the same decision in 2006 when it 
determined that the cost per impression of sponsoring a NASCAR 
team was almost impossible to measure.
    The Navy ended its own sponsorship of NASCAR in 2008 
because the program was too expensive compared to the marketing 
benefit it received.
    And the Coast Guard ended their relationship with NASCAR in 
2006 due to the cost of the sponsorship and only generating 350 
leads for their $9.6 million investment.
    As I stated in February, when examining the Guard's 
recruiting assistance program, I understand that aggressive 
recruiting is the key to maintaining the strength of our 
military.
    The Congress has a responsibility to ensure that every 
taxpayer dollar spent produces measurable results. In this 
environment of dwindling recruiting budgets, I want to 
understand why the Army National Guard has maintained sports 
sponsorships that fail to reach target recruiting demographics 
and also provides less value per dollar than other forms of 
marketing.
    In preparation for this hearing, the Subcommittee received 
documents and information related to the National Guard's 
marketing and sponsorship contracts and their effectiveness.
    I ask unanimous consent that these documents be included in 
the public hearing record.\1\ Without objection, they will be 
added to the record.
---------------------------------------------------------------------------
    \1\ Documents Senator McCaskill submitted for the Record appears in 
the Appendix on page 19.
---------------------------------------------------------------------------
    Senator McCaskill. Today, I want to explore the Army 
National Guard's rationale for continuing its sponsorship of 
professional sports programs and discuss whether spending 
solely to promote ``brand awareness'' is an effective use of 
taxpayer money.
    I also want to discuss how the Guard measures the 
effectiveness of its marketing relationships with NASCAR, 
IndyCar and other organizations.
    And, finally, I want to ask whether officials inside the 
Guard may have abused these relationships and the steps the 
Guard has taken to prevent any such abuses from occurring.
    I thank the witnesses for being here, and I look forward to 
their testimony. Senator Johnson.

              OPENING STATEMENT OF SENATOR JOHNSON

    Senator Johnson. Thank you, Madam Chairman.
    I do not think I can add a whole lot to that.
    I think we are all aware of Senator Coburn's 2013 
Wastebook, in which this example of sponsoring NASCAR is No. 46 
in the Wastebook. It says that not a single person has joined 
the Army National Guard as a result of the $136 million spent 
sponsoring race legend, Dale Earnhardt, Jr. over the last 5 
years of recruiting new members.
    I am assuming that Senator Coburn has done a pretty good 
job, and that is a true statement.
    It goes on to say, with a shrinking defense budget, this is 
one case of spending that might be ready for the caution flag.
    I agree with that.
    And I am hoping at this hearing we are going to hear that 
this marketing technique is going to be ended.
    And I think what I am primarily going to try and get out of 
this hearing is what are we going to be doing to evaluate other 
dollars spent to recruit, which--obviously, we have to recruit, 
and we want to be supportive of those efforts, but we need to 
measure the effectiveness of whatever dollars we do spend.
    This is one that I think should really, like I say, get the 
caution flag.
    Thank you, Madam Chairman.
    Senator McCaskill. Thank you, Senator Johnson.
    At this time, we will proceed with testimony from our 
witnesses. Let me introduce them.
    Major General Judd Lyons is the Acting Director of the Army 
National Guard. As Acting Director, he guides the formulation, 
development and implementation of all programs and policies 
affecting the Army National Guard, a force of over 355,000 
soldiers across the country. Prior to assuming his position in 
January this year, he served as the Deputy Director of the Army 
National Guard.
    Kathy Salas is the Principal Assistance Responsible for 
Contracting for the National Guard Bureau (NGB). In this 
position, Ms. Salas executes, oversees and manages all 
delegable contracting and grant assistance authority for the 
Chief of the National Guard Bureau. Ms. Salas has been a 
contracting professional for 30 years and is a veteran of the 
U.S. Army and the U.S. Army Reserves.
    I would like to thank both of you for your service to our 
Nation; we appreciate that.
    It is the custom of this Subcommittee to swear all 
witnesses, if you would stand.
    In whatever manner you are comfortable, do you swear that 
the testimony you will give before this Subcommittee will be 
the truth, the whole truth and nothing but the truth; so help 
you, God?
    General Lyons. I do.
    Ms. Salas. I do.
    Senator McCaskill. Let the record reflect that both 
witnesses have answered in the affirmative.
    We are going to be using a timing system today. We are 
hopeful that your testimony will be no more than 5 minutes. 
But, if it goes over, that will not be a problem, so take all 
the time you need.
    And we will begin with you, Major General.

TESTIMONY OF MAJOR GENERAL JUDD H. LYONS, ACTING DIRECTOR, ARMY 
             NATIONAL GUARD, NATIONAL GUARD BUREAU

    General Lyons. Chairman McCaskill, Ranking Member Johnson, 
I appear before you today, representing more than 355,000 
soldiers in the Army National Guard. I am here to provide 
information on the Army National Guard's marketing programs, 
particularly sports-related sponsorships and marketing, 
including their history, purpose, costs and effectiveness.
    I arrived in July 2013 as the Army National Guard Deputy 
Director after having previously served as the Adjutant General 
for Nebraska.
    I have been the Acting Director since late January. In this 
time, it became apparent to me that management controls and 
oversight were not where they needed to be. Accordingly, I 
initiated actions to improve our acquisition processes, our 
organizational structure and accountability. These actions are 
applicable to sports sponsorships.
    I share the Subcommittee's concerns. They are my concerns, 
and I pledge my support to ensuring the utmost fiscal 
stewardship of taxpayer monies.
    I know the Subcommittee is well aware of the recruiting the 
Army National Guard faced in the mid-2000's as well as the 
extraordinary gains in accessions. This successful strength 
increase cannot be attributed to any single program. However, 
the implementation of the Army National Guard's national 
marketing and branding coincides with our successes in strength 
stabilization, accession and retention of quality soldiers.
    The National Guard began sports sponsorships and marketing 
programs to increase awareness of the Guard as part of its 
overall recruiting strategy. The goal was to reach a large 
demographic of those likely to serve in the military.
    A key aspect of this population is an interest in sports. 
Sixty-seven percent are sports fans. NASCAR, in its base of 77 
million fans, is second only to the National Football League 
(NFL) in its broad reach of those likely to serve.
    However, sports sponsorship is just one component of our 
overall branding and marketing strategy. Its impact is not 
limited to what happens on the day of a race or at a particular 
track.
    Activities related to sports marketing take place before 
and after the races and hundreds of miles from sports 
locations. For example, awareness of the Army National Guard is 
amplified by social media, schools' programs and public events 
involving demonstration cars.
    America's youth who are interested in military service have 
many choices. Increasing awareness of the Army National Guard 
is important to us.
    At its peak, the Army National Guard had six sports 
sponsorships but currently has only two--NASCAR and IndyCar. 
Programs were terminated for a variety of reasons, including 
other budget priorities and feedback from the States.
    From fiscal year (FY) 2010 to fiscal year 2014, we reduced 
our marketing budget by 35 percent. Specifically, our 
professional sports sponsorships were reduced from $71 million 
to $44 million, which is a reduction of 38 percent.
    In 2014, the Army National Guard spent $32 million on 
NASCAR and $12 million on IndyCar sponsorships.
    Beyond national media exposure, the NASCAR and IndyCar 
Series efforts have other impacts. These programs are projected 
to lead to engagements with 35,000 high school students in our 
science, technology, engineering and math (STEM) program in 
2014.
    Demonstration cars from NASCAR and IndyCar, branded with 
the National Guard logo, travel to support recruiting events in 
local communities across the Nation. Recruiters want these 
demonstration cars at their events because they attract our 
target demographic.
    My staff is currently reviewing all of our marketing 
programs, including NASCAR and IndyCar, for effectiveness and 
efficiency. Our assessment will include impressions, media 
value and engagements, and the relationship between these 
professional sports programs and an individual's awareness of 
the National Guard.
    I also continue to press for more specific data. In March, 
we initiated surveys at all 65 of our military entrance 
processing stations throughout the country to find out what 
influenced new recruits to join the Army National Guard.
    We need to continue to explore ways to measure relevancy of 
our programs. I will carefully consider programs to ensure that 
they generate the intended effect. As a fiscal steward of 
taxpayer money, I want to ensure that we are applying our 
resources where they will best achieve intended outcomes.
    Demographics change frequently; media options change 
constantly, and that is why we must review our marketing and 
sponsorship programs annually. As the new Acting Director, I 
will have the opportunity to do just that.
    As I mentioned earlier, our overall processes, 
organizational structure and accountability were not where they 
needed to be. Because of this, I directed the creation of a new 
organizational entity to address these concerns.
    The Army National Guard Acquisition Program Management 
Office is designed to ensure that programs are appropriately 
validated and managed. This initiative ensures that a rigorous 
requirement determination process is performed separate and 
apart from the contracting process, consistent with law, 
regulation and policy.
    Additionally, the APMO will ensure proper management and 
oversight of contracting officer's representative (COR) 
functions. I have mandated additional emphasis on training for 
contracting officer's representatives in addition to fiscal law 
training and annual ethics training.
    In summary, I take very seriously my responsibilities as 
the Acting Director of the Army National Guard, and I am fully 
aware that the money that Congress authorizes the Guard belongs 
to the American taxpayers. That is why since I have been the 
Acting Director the due diligence I have applied includes 
reviewing and validating all requirements through a transparent 
and deliberate process.
    In closing, I want to reiterate that I fully understand and 
deeply respect the responsibility entrusted to this 
Subcommittee, and I appreciate the opportunity to be here 
today, and I look forward to your questions.
    Senator McCaskill. Thank you, General. Ms. Salas.

 TESTIMONY OF KATHY A. SALAS, PRINCIPAL ASSISTANT RESPONSIBLE 
             FOR CONTRACTING, NATIONAL GUARD BUREAU

    Ms. Salas. Thank you, Senator.
    Senator McCaskill. Am I pronouncing your name right?
    Ms. Salas. Salas, yes, Senator.
    Good afternoon, Chairman McCaskill and Ranking Member 
Johnson. I am pleased to be here today to discuss this 
important issue.
    My name is Kathy Salas, and I am the Principal Assistant 
Responsible for Contracting for National Guard Bureau. My 
responsibility is to provide oversight and administration for 
all National Guard Bureau contracts, grants and cooperative 
agreements.
    I also entered my position in July 2013. My previous 
assignment was with the Army Contracting Command as the 
Director of Contracting for the Letterkenny Army Depot. I have 
also served with the former Joint Contracting Command-Iraq/
Afghanistan (JCC-I/A), the Defense Logistics Agency (DLA) and 
the Defense Finance and Accounting Service (DFAS).
    I am here today to provide some insight into the National 
Guard Bureau acquisition and contracting programs.
    When I arrived in this position, I found an organization 
that was not structured, staffed or trained to provide optimal 
oversight of the contracting functions. As an example, from 
2003 to 2011, the operational contracting workload increased in 
terms of contract obligations from $190 million per year to 
over $1 billion per year without a corresponding increase in 
staffing. This and other issues were identified by the Army 
Audit Agency in an audit of the contracting organization.
    With this report and NGB senior leadership, we have been 
able to reshape the organization and chart a way ahead to 
ensure proper oversight.
    We have replaced leaders in senior contracting positions 
and have realigned the contracting command to ensure that 
contracting decisions are made independent of undue influence.
    We have implemented an annual training plan for the 
contracting workforce, and we continue to educate customers on 
ways to improve acquisition planning and on contracting 
processes.
    We have conducted a 100 percent review of contracting 
officer warrants to ensure that only qualified personnel with 
the proper training, education and experience are warranted.
    I hope today you will see that we acknowledge and share 
your concerns over reports of wasted abuse. I take my 
responsibilities as PARC seriously, and the National Guard 
Bureau is committed to the responsible stewardship of taxpayer 
dollars. I am confident that our improvements have postured the 
National Guard Bureau for better oversight and management of 
our contracting enterprise.
    And, in closing, I would like to thank the Chairman and the 
Ranking Member for the opportunity to be here today to discuss 
these important issues. I look forward to your questions.
    Senator McCaskill. Thank you very much.
    And I know there has been an effort on contracting.
    And there is no question that we exploded contracting 
throughout the military without the requisite surge we needed 
in acquisition personnel, and we paid a very high price for it 
as a country.
    Let me start with this; this is about contracting 
oversight, so I want to start with specific questions about the 
contracting.
    I understand that you have a large, full-scale advertising 
contract with a company called LM&O. This includes direct 
marketing, social media and sports sponsorships. Have I 
accurately characterized that?
    Ms. Salas. That is correct, Senator.
    Senator McCaskill. But the sports sponsorships are done 
with a subcontract through Docupak, who was the same contractor 
for the now infamous Recruiting Assistance Program (RAP). Is 
that correct?
    Ms. Salas. That is correct, Senator.
    Senator McCaskill. Can you explain why you cannot contract 
directly with NASCAR and why we need these middle men?
    Ms. Salas. I am not aware that we are capable of 
contracting directly with NASCAR.
    Docupak--the contracts were awarded through a competitive 
process. And, although Docupak was also the subcontractor or 
the contractor for G-RAP, we have not found any improprieties 
necessarily for Docupak.
    So, again, the competitive process was used. And, as the 
subcontractor we do not have privity of contract with them, so 
we did not determine them to be the subcontractor.
    Senator McCaskill. But I am curious as to why. Whenever I 
look at contracting and I see layers, I always want to know why 
and why is that of value to us, the government that is 
contracting.
    So why is there a value to have a contract that is supposed 
to include sports sponsorship? Where is the value in paying 
another layer of contractor under that?
    Is that something you need to take for the Record, or can 
someone explain to me how that came about--why we would have--
because I guarantee you they are both making money off of it.
    Ms. Salas. I do not disagree, Senator.
    I will have to take that for the Record. I am not sure what 
the process was before I got here, the decisions that were 
made, but I would take that for the Record.
    Senator McCaskill. Now let's put on the Record how long you 
have been in your respective positions because I want to make 
sure it is very clear that some of the problems we are talking 
about were not your decisions.
    General Lyons. Yes, ma'am. I came to National Guard Bureau 
in late July 2013. I have been the Acting Director since 
January 21, 2014.
    Senator McCaskill. OK. And you, Ms. Salas, how long have 
you been in your position?
    Ms. Salas. I also took my position in July 2013, Senator.
    Senator McCaskill. So you all have been there for less than 
a year.
    General Lyons. Yes, Senator.
    Senator McCaskill. OK. Let's talk about effectiveness.
    You need to recruit, I believe, around 50,000 soldiers a 
year. Is that correct, General?
    General Lyons. Yes, Senator.
    Senator McCaskill. And, in order to generate those 
recruits, you need to generate about a million leads to get to 
the 50,000 that will make it across the finish line.
    General Lyons. Senator, I do not know where the figure of a 
million leads comes from. I would need to come back to you on 
that to validate that.
    Senator McCaskill. OK. I think we got it from you.
    General Lyons. OK.
    Senator McCaskill. But please feel free to check it and get 
back to us if that is an incorrect number.
    How many actual recruits or leads has the NASCAR program 
brought in?
    General Lyons. Senator, as the relatively new Acting 
Director, the sports sponsorships are a new issue for me as 
well.
    And tying sports sponsorships like NASCAR and IndyCar, 
which we view as branding programs that raise awareness of the 
National Guard in the communities, trying to tie that awareness 
directly down to an individual's --affirmative decision--to 
join the National Guard is elusive, and I share your concern 
about that.
    That is why as I look ahead here I want to evaluate these 
programs, all of them, as we look ahead into fiscal year 2015, 
to come up with what are the measures of effectiveness and how 
can I apply them and the staff do an analysis that they are, in 
fact, achieving the intended effect, and I am committed to 
doing that.
    Senator McCaskill. In fact, I believe I am correct in 
saying that there has never been an analysis for alternatives 
in this regard since this sponsorship of NASCAR began. Is that 
correct?
    General Lyons. Not to my knowledge, Senator, not during my 
tenure.
    I cannot speak for in the past whether any analysis of 
alternatives----
    Senator McCaskill. We have asked, and we have not been able 
to locate any analysis that was ever done, comparing the 
relative benefits of this sponsorship versus other marketing.
    General Lyons. Yes, ma'am, I can take that for the record--
--
    Senator McCaskill. That would be great.
    General Lyons [continuing]. And see if we can find that 
out.
    Senator McCaskill. What is the most effective program you 
have in generating leads and recruits?
    General Lyons. Senator, we have a variety of programs, as 
you alluded to in your statement.
    We spend approximately a third of our marketing and 
advertising budget in sports sponsorships and sports marketing. 
The other two-thirds are in lead-generating activities. So 
amongst those, we have national media; we have marketing 
support; we have advertising support and then State media.
    So, in terms of lead generation in those categories, the 
highest number comes from our national media efforts.
    Senator McCaskill. And how much do you spend on that 
annually--the one that generates the most leads?
    General Lyons. Senator, our national media campaign was 
about 40 and a half million dollars--$40,005,000.
    Senator McCaskill. And what was the total for sports 
sponsorships?
    General Lyons. Sports sponsorships is $44 million. The 
entire sports marketing is $56 million and some change.
    Senator McCaskill. OK. Let me ask this; when does the 
decision--have you made a decision on this contract yet in your 
position, General?
    General Lyons. Senator, I----
    Senator McCaskill. Do you have this as a decision item 
since you have taken command?
    General Lyons. No, Senator. My first opportunity to do that 
is in the very near future. I have tasked the staff to do an 
analysis of all of our programs, including sports sponsorship 
programs, and bring that to me so that I can make a decision 
about the road ahead.
    Senator McCaskill. OK, Senator Johnson.
    Senator Johnson. General Lyons, in total, how much does the 
Guard spend on recruitment a year?
    General Lyons. Senator, our marketing budget for fiscal 
year 2014 is $120 million and about $53,000--$123,053,000.
    Senator Johnson. That is marketing.
    What do you spend on recruitment?
    General Lyons. Senator, I would have to take that for the 
Record to get the entire figure for you, if that is all right.
    Senator Johnson. You said you were going to evaluate the 
effectiveness of the programs. What are you looking for in 
terms of metrics for evaluation?
    General Lyons. That is an area of interest to me, Senator. 
With branding programs, a typical measure of effectiveness is 
in terms of impressions and also the media value associated 
with those impressions. I am interested in other metrics that 
can be gleaned to assess the effectiveness of these programs, 
and that is what I have tasked the staff to look at.
    Senator Johnson. OK. I saw that, too--the impressions 
versus media value. Can you just explain that to me? What do 
you mean by impressions and media value?
    How is that--in other words, I am seeing here, $11 
million--actually, $11 billion impressions, $102 million worth 
of media value. Just explain that to me.
    General Lyons. Senator, that is what I am interested in. If 
a measure of effectiveness in sports marketing or sports 
sponsorship is impressions, how many impressions are gained?
    In other words, how many times is National Guard shown to 
the population--and then what the associated media value is?
    I am not----
    Senator Johnson. Is media value what you spent?
    General Lyons. So media value would be calculated, as I 
understand it, on the cost of that same impression if it were 
purchased. That is my understanding.
    Senator Johnson. So you are spending $120 million on 
advertising, and then you are backing into the value of that by 
saying how many impressions that is and what the media value 
is.
    I mean, is the media value what you spend on it?
    [No response.]
    I am sorry if I sound a little confused here, but----
    General Lyons. No, that is fine, Senator.
    And that is why as I came into the position I am interested 
in evaluating these programs. I would like to know what are 
good metrics to use to measure the effectiveness of sports 
sponsorship programs, and that is what I am focused in on.
    Senator Johnson. My suggestion would be start with the 
number of people you have recruited and have a good solid 
figure on how many dollars you spend on recruitment. So that is 
why I first started out with how much do you spend on 
recruitment a year.
    And then, have you taken a look at that over time so you 
have some level of history in terms of--let's say in 2010 we 
spent $100 million and recruited 50,000 people; it cost X 
number of dollars per recruit.
    I mean, do you have that?
    I mean, do you ever see any information like that?
    General Lyons. Senator, I will come back to you on that if 
I can, please.
    Senator Johnson. Ms. Salas, do you have any idea in terms 
of what metrics are being used?
    How do we measure the effectiveness of past recruitment 
programs versus today versus what we would anticipate 
effectiveness tomorrow?
    Ms. Salas. Senator, that would not be my responsibility--to 
measure the effectiveness of a program that is managed by a 
requiring activity. So, no, I do not have that information.
    Senator Johnson. I am not quite sure where I should be 
going from here.
    General Lyons. So, Senator----
    Senator Johnson. To me, this is--yes, I am an accountant. I 
am a business guy. I actually understand marketing.
    To me, this is gobbledygook and what you need to be looking 
at is pretty basic in terms of measurement of effectiveness.
    So it starts with overall what you spend and how much it 
costs per recruit. And then you start drilling down on, well, 
we are spending X number of dollars in this area, X number in 
this, X number in that. And you start figuring out where the 
leads are.
    So I am just not seeing in any of the briefing material 
here in terms of anything I can take a look at to evaluate the 
effectiveness of this.
    General Lyons. Yes, sir, and I can provide to you the 
dollars that we spend in terms of lead generation activities, 
the number of leads associated with those activities.
    In sports sponsorship, in terms of trying to tie the 
awareness of the Guard through these branding programs directly 
to an individual's decision to enlist is elusive. And I share 
your frustration with that, on how we get at that to assess the 
effectiveness of those two programs. So I am in agreement with 
you on that.
    Senator Johnson. Is there an active program to be able to 
elicit the effectiveness of that, though?
    I mean, is there actually an attempt to, OK, if we spend 
dollars here, what is going to be the measurement on that 
spending?
    Have you noticed--again, I am not holding you accountable 
because you are new here. But, have you ever seen any attempt 
to do that, or do we just kind of spend money and go, well, we 
are no quite sure what happens after we spend it?
    General Lyons. Senator, in terms of the program in the 
past, I am not aware of that.
    I have, in March, tried to institute some metric-gathering 
through our military entrance processing stations, so as 
recruits come into those activities to enlist, to try and 
garner data on what it is that influenced them to join the 
Guard. So that is one measure that I have taken.
    Senator Johnson. Describe those efforts to me in greater 
detail then. Are the recruiting stations developing a report, 
and then are they doing a survey?
    Is this done 100 percent? Is it done to 10 percent of the 
recruits coming in? Do they take a statistical sampling?
    General Lyons. Senator, I can provide you the details on 
what that looks like, but generally speaking, it is a 
questionnaire that the recruit answers about what influenced 
them to their decision to enlist and join. And NASCAR/IndyCar 
sports sponsorships are one of those choices. So that does help 
us get at that.
    So I will provide that to you.
    Senator Johnson. Well, first of all, that is a good idea. 
Is this really the first time the Guard has ever done that?
    General Lyons. Senator, to my knowledge, this is the--I 
cannot talk to what has been done in the past.
    Senator Johnson. Again, let me make a suggestion then. Find 
out whether they have done that in the past because there may 
be some good information for you to base future decisions on.
    General Lyons. Yes, sir.
    Senator Johnson. I would hope they have done that.
    I mean, again, that is Marketing 101. You spend some money. 
Do a survey. Find out what did prompt somebody either to buy 
your product or walk in your door. OK.
    Well, good. Thank you.
    Senator McCaskill. In looking at this, all of the active 
branches have rejected NASCAR over the last several years. Has 
there been any reach out to the analysis that the other 
branches have done in determining that this was not a good use 
of dollars?
    General Lyons. Not to my knowledge, Senator.
    Senator McCaskill. Is there any joint effort on advertising 
for the military?
    General Lyons. No, Senator. The Army National Guard does 
our own recruiting and advertising program for our enlistment 
for men and women to join us.
    Senator McCaskill. It seems like to me--do you know why all 
the other active military components decided to not recontract 
with NASCAR?
    General Lyons. I do not, Senator, other than what was 
relayed by the Subcommittee.
    Senator McCaskill. It is interesting to me because you guys 
do not have as much money as the Army has to market. You have 
very limited dollars compared to the Army.
    So it is interesting to me, and you know we like to preach 
joint in terms of cost savings and working together.
    It is interesting to me that another branch of the military 
with more money finds sponsoring NASCAR is not cost effective, 
but no one at the Guard would then look to see maybe we should 
look at their analysis.
    Are you aware as to whether or not that ever crossed 
anyone's desk at the point in time--and when is this decision 
made, in what month?
    The decision to do the contract for the year--what is the 
decision date for that?
    General Lyons. I will be undergoing that analysis, 
receiving that analysis and reviewing all of these programs in 
the next probably month.
    Senator McCaskill. OK. So is the contract from June to 
June? Is it from July to July? Is it a fiscal year?
    Does anybody know?
    General Lyons. Senator, it goes from a seasonal basis. So 
the end of the racing season, I believe, is in November.
    Senator McCaskill. OK. So was the decision made for this 
season made last November?
    General Lyons. The decision for this current season would 
have been made approximately this time last year.
    Senator McCaskill. OK.
    General Lyons. Relatively speaking, ma'am. I was not here, 
but----
    Senator McCaskill. OK. I am trying to figure out when the 
Army pulled the plug after their analysis, which would have 
been full of great data for you to look at, because they 
obviously are looking at cost per lead and cost per impression.
    And whether or not you are saying it is branding or whether 
it is recruiting, the only reason you are doing branding, other 
than the fact we want everyone to support the National Guard so 
employers are helpful to National Guard members--I mean, 
obviously, that is important, but the primary reason you want 
to brand it is so that we get 50,000 people who step across the 
line and say I am willing to serve.
    And it is just interesting to me that there would not be 
any cross-pollination, especially when you realize they have 
all dropped. All of the branches have dropped, citing costs and 
ineffectiveness, and yet, this analysis had not even been 
undertaken until you showed up.
    Let's talk a little bit about recruiting women. Are you 
aware of any of the contracts that you all have that are geared 
toward recruiting women to the Guard?
    General Lyons. Senator, with regards to recruiting women to 
the Guard, on a personal basis, I can say I have done my part. 
I recruited my spouse, Amy, to join the Guard in 1994.
    Senator McCaskill. Now I hope that was not heavy lifting.
    General Lyons. No, it was not.
    We actually pride ourselves on being an inclusive 
organization and reflective of the communities where we serve, 
and so I am happy to report that the number of women serving in 
the Army National Guard has actually gone up 40 percent between 
2000 and 2014.
    In 2000, there were 40,000 women in the Army National 
Guard. In 2014, there is 56,000. So, a 40 percent increase.
    Within our accessions, in 2000, women represented 18.2 
percent of our accession in that year. In 2014, that has gone 
up 40 percent to 22.2 percent.
    So we are very interested in offering opportunities to all 
members of society, and I think our growth in attracting women 
to our ranks----
    Senator McCaskill. That is terrific, and I am glad to hear 
that. I am just curious, as you are developing----
    The branch, the command, that actually does this is what, 
and who is the leader of that? Who actually does the G-RAP 
program and the marketing program? And I know it is a special 
bureau within the Guard.
    General Lyons. Senator, the marketing and advertising and 
the recruiting is, in the Army National Guard, in an 
organization called Guard Strength Service (GSS).
    Senator McCaskill. Guard Strength, OK.
    Within Guard Strength, are you aware of any of the 
marketing tools or any of the efforts that have been made in 
terms of national media where there has been an emphasis on 
trying to get at the women's demographic because, clearly, it 
ain't NASCAR or Indy?
    General Lyons. Senator, our marketing and advertising 
products that we use----
    Senator McCaskill. Although I should say 40 percent of 
NASCAR fans are women. That is a lot.
    General Lyons. That is true, Senator.
    Senator McCaskill. So I do not want to diss the women that 
love NASCAR because some of them are my family members. So I 
would be in big trouble if I let that statement stand.
    But, go ahead. I am sorry to interrupt you.
    General Lyons. No, that is fine, Senator.
    What I was saying was that our marketing tools, print media 
or what we would know as public service announcements (PSA), 
which we call noncommercial sustaining agreement, our 
websites--we are--again, we want to be reflective of society 
where we serve. So you will see women in leadership roles, 
being reflected in duty positions or specialties that may not 
be their traditional specialties that someone may associate.
    So we do that.
    Senator McCaskill. That is great.
    General Lyons. I might also add that we--within the sports 
arena, we work with girls' soccer, volleyball and basketball.
    And, again, in relation to your question about attracting 
women, we do find that in our direct mail campaigns that women 
do respond favorably to those efforts.
    Senator McCaskill. That is great.
    I know that 40 percent of NASCAR fans are women and 28 
percent of IndyCar fans are women, and so I am glad that you 
are working--and these are through high schools that you are 
doing the soccer and volleyball programs?
    General Lyons. Yes, Senator.
    Senator McCaskill. Great. Do the sponsorship programs 
include perks for senior Guard officers and officials?
    General Lyons. Senator, the sports sponsorship programs in 
the past were fairly broad in terms of the execution of the 
program and who could participate in the program. That is 
something that--when I became the Acting Director, I took an 
immediate step to curtail that so that the access to the events 
were primarily directed toward potential applicants.
    So, in the past, it was within the scope of the contract 
and the policy to allow senior leaders to participate, but as 
the Acting Director I have made a determination that a better 
use of that program is to target it toward potential 
applicants.
    Senator McCaskill. Have you ever been to one of the NASCAR 
or IndyCar races?
    General Lyons. I have never attended either.
    Senator McCaskill. Do you know what senior officers have 
gone and how often?
    General Lyons. I do not.
    Senator McCaskill. And is that information available?
    General Lyons. I will take that for the Record, Senator.
    Senator McCaskill. OK. What policies are there in place now 
to ensure these programs are not abused by officials who want 
the perks associated with the sponsorships?
    General Lyons. Senator, that has been a focus of mine--is 
improving our management controls and our accountability. So we 
have, as I said, issued guidance to the field that restricts 
the access to these programs to those applicants, and that went 
out in March, shortly after I became the Acting Director.
    Senator McCaskill. If you were going to rank professional 
sports sponsorships--let's assume for purposes of this 
discussion that your budget for this area of recruitment and 
marketing was going to be cut by a third. Can you rank what you 
spend that money on now as to what would fall off the table at 
this hearing today?
    General Lyons. Senator, I think my approach toward that is 
we need to have awareness of the National Guard. We need to 
create that awareness; we need to sustain that awareness of the 
National Guard, so that men and women who have a propensity to 
serve know that we are an option for them.
    So, if these programs were not available, my focus would be 
to determine what--some other vehicle that can create that 
awareness and sustain that awareness of the National Guard.
    So that would be my focus, and I would apply those dollars 
toward that.
    Senator McCaskill. I guess what I am trying to get you to 
do is to look at the list that you spend money on. You have a 
list, I know, there in front of you somewhere. And I am asking 
you to do your spending priorities.
    What do you think that you spend money on now in this 
regard that is the most important, and what do you think is the 
least important of the money that you spend now and the 
activities that you spend it on?
    General Lyons. So I think, Senator, generally speaking, 
with about a third of the marketing and advertising budget 
going toward branding, awareness, those activities, and two-
thirds, approximately, going toward lead generation, that is an 
area that I need to analyze specifically to your question. Is 
that the appropriate balance between those two activities?
    Senator McCaskill. Well, I guess this is getting back to 
Senator Johnson's confusion.
    You have national advertising, and you have sports 
sponsorship.
    Now I guarantee you I could get ad people in this room that 
say national advertising is branding because you are--while you 
are tailoring where the ad is run for a demographic, obviously, 
you are getting a wide swath of people, many of whom are not 
within your demographic.
    So are you calling national advertising, branding, or are 
you calling it recruiting?
    General Lyons. I think it is ultimately--sports 
sponsorships, branding, lead generation, national campaigns--
those are all part of our recruiting strategy. They are all 
components of that.
    What we characterize sports sponsorships and sports 
marketing as is branding and awareness-generating activities. 
The other two-thirds, our national campaigns, are lead-
generation activities.
    Senator McCaskill. I guess it is hard for a lay person to 
see how having your name associated with NASCAR is brand 
awareness and an ad on an action show, where young men and 
women are maybe watching it--how one is lead-generating and 
recruiting and one is just brand awareness.
    I mean, they are both intangibles in terms of people seeing 
something, getting an impression from it and deciding whether 
or not they want to act on it, no different than buying a 
product. And that is, of course, why Coca-Cola puts their name 
on NASCARs because they want people to buy Coca-Cola. And that 
is why other people that sell things put their names on NASCARs 
or IndyCars.
    So I guess if you are saying that you have a third for 
branding and the rest is recruiting, I do not understand how 
national advertising gets in the recruiting pot and how NASCAR 
does not and how you can justify the fact that nobody is 
getting recruited from the NASCAR.
    I mean, the facts speak for themselves. The data are very 
clear. You are not getting recruits off NASCAR.
    And these are data that you gave us. The reason we know 
this is because you told us.
    So I guess I am curious why you are not willing to say that 
if you were forced to spend less that this is not something 
that you would immediately look at in terms of deciding this is 
not the best use of the money.
    General Lyons. Senator, I did not mean to convey that I am 
unwilling to say that.
    What I was trying to convey was I am trying to analyze 
these programs for exactly the reasons you are saying. Are they 
achieving the intended effect? Are they the best use of our 
taxpayer dollars? And is that the right thing to be doing?
    These are things that I am considering right now as the 
Acting Director, as a path forward. So I am in agreement with 
you on that, that I need to do that, and I am committed to 
doing that.
    Senator McCaskill. Can you pinpoint the people who made the 
decision to do the NASCAR and Indy branding sponsorship in the 
first place?
    General Lyons. Senator, I mean, it goes back 10-plus years. 
So the ultimate decision, though, on these programs rests with 
the Director of the Army National Guard.
    Senator McCaskill. OK. And through recommendations from the 
Guard Strength Services?
    General Lyons. Yes, Senator.
    Senator McCaskill. So they would make a recommendation up, 
and then the Director would either acquiesce to that suggestion 
or decide not.
    General Lyons. I think that would be accurate.
    Senator McCaskill. And it would be up to the Director to 
ask the questions to determine whether or not this was a good 
use of money.
    General Lyons. That is absolutely my methodology, Senator.
    Senator McCaskill. Right. Or, require analytics to actually 
look at how effective the money will actually be.
    General Lyons. That is absolutely my methodology and my 
focus.
    Senator McCaskill. So this contract has been renewed if it 
began, I believe, since--2007 was the first year?
    General Lyons. I believe, Senator, it was either 2003 or 
2005. I apologize. We will come back to you on that.
    Senator McCaskill. OK. How many directors have there been 
of the Guard since that point in time?
    General Lyons. Senator, can I come back to you on that 
also?
    Senator McCaskill. Is it four or five?
    General Lyons. I would say probably four.
    Senator McCaskill. I was going to say four. I thought it 
was probably four.
    And we will correct that exactly for the record, but I want 
the record to be clear that you have four predecessors who 
would have had the opportunity to ask for analytics, who would 
have had an opportunity to do the evaluation that the other 
branches have done, who would have had a decision point about 
whether or not to continue, and that all four of those decided 
that was not important, and they signed off on it.
    Is that an unfair characterization of what has occurred?
    General Lyons. I think they all would have had the 
opportunity to assess the program and make a decision.
    Senator McCaskill. OK. Is there anything that you would 
like to add to the record that I have not asked you about 
today?
    General Lyons. Senator, again, as a relatively new Acting 
Director, these sports sponsorship programs are relatively new 
to me as well. I am keenly interested in trying to determine 
the most appropriate course of action for the road ahead. I 
want to see metrics. I want to see analytics. I want to be the 
most effective steward of taxpayer resources that I can be.
    I have taken aggressive measures to institute management 
controls in the organization, increase the level of training, 
in conjunction with Ms. Salas, of our contracting officers' 
representatives and program managers, emphasize fiscal law--
purpose, time and amount--continue to arm our people with the 
tools they need to be successful.
    That is where I am focused in taking us--and making the 
best possible decisions for the organization that continues to 
attract men and women to our formations.
    Senator McCaskill. And this will be the last question I 
ask, but I know you said that you have changed, or in the 
process of changing, policies about accessing perks associated 
with this program.
    Do you believe that one of the reasons there was not a hard 
look at this is because the leadership of the Guard enjoyed the 
perks associated with the program?
    General Lyons. Senator, I do not think I could comment on 
what previous leaders thought with respect to that.
    I know that the program, as it existed, had a broad range 
of parameters for who could participate in the program. It was 
part of the contract, part of the policy.
    I have chosen to restrict that so that it is focused, in my 
opinion, in a better direction, which is toward applicants and 
the public.
    Senator McCaskill. Have you reviewed the contract that 
would indicate to you that there was embedded in the contract 
terms the contractual language that would indicate that these 
perks were open to anybody in Guard leadership?
    [No response.]
    Well, you said that the reason this occurred in the past 
was because it was in the contract.
    Is there specifics in the contract that embrace the notion 
that the perks associated with the contract were appropriately 
or were envisioned, being, used by Guard leadership?
    General Lyons. Senator, I would have to take that for the 
record, to look backward at that.
    Senator McCaskill. What I would really like to see is, you 
have made this statement; it was the policy in the contract 
that allowed that. I want to see the specifics of the contract 
that have led you to that conclusion.
    General Lyons. Senator, what I was trying to articulate was 
that in the execution of the program there was broad 
characterization of people that could participate in the 
program. From centers of influence to Army National Guard 
personnel to potential recruits, recruiting and retention 
personnel, obviously.
    So that is what I was trying to articulate.
    Senator McCaskill. OK. If there is anything that is in 
writing anywhere that would lay out the parameters of that, 
whether it is in the contract or written in any policy 
anywhere, that would be really important for our Committee to 
see.
    If this was just an amorphous policy that was floating out 
there, that is one thing. But if there is--that would be 
unusual in the military, for there to be something floating out 
there and it not be put in writing.
    Certainly, this Committee would be very interested in 
seeing whatever policy or contractual provisions that would 
have led someone to believe that the perks of this contract 
were widely available to Guard leadership. OK?
    I thank you both for being here very much.
    We will look forward to your completing the record based on 
the items we have talked about today. And the record will 
remain open for a few days in case there are other questions 
for the record, and we will be in contact with you about that.
    General Lyons. Thank you, Senator.
    Senator McCaskill. Thank you again, both, for your service.
    [Whereupon, at 3:57 p.m., the Subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              

[GRAPHIC] [TIFF OMITTED] T9682.107

[GRAPHIC] [TIFF OMITTED] T9682.108

[GRAPHIC] [TIFF OMITTED] T9682.109

[GRAPHIC] [TIFF OMITTED] T9682.110

[GRAPHIC] [TIFF OMITTED] T9682.111

[GRAPHIC] [TIFF OMITTED] T9682.112

[GRAPHIC] [TIFF OMITTED] T9682.113

[GRAPHIC] [TIFF OMITTED] T9682.114

[GRAPHIC] [TIFF OMITTED] T9682.115

[GRAPHIC] [TIFF OMITTED] T9682.116

[GRAPHIC] [TIFF OMITTED] T9682.117

[GRAPHIC] [TIFF OMITTED] T9682.118

[GRAPHIC] [TIFF OMITTED] T9682.119

[GRAPHIC] [TIFF OMITTED] T9682.120

[GRAPHIC] [TIFF OMITTED] T9682.121

[GRAPHIC] [TIFF OMITTED] T9682.122

[GRAPHIC] [TIFF OMITTED] T9682.123

[GRAPHIC] [TIFF OMITTED] T9682.124

[GRAPHIC] [TIFF OMITTED] T9682.125

[GRAPHIC] [TIFF OMITTED] T9682.126

[GRAPHIC] [TIFF OMITTED] T9682.127

[GRAPHIC] [TIFF OMITTED] T9682.128

[GRAPHIC] [TIFF OMITTED] T9682.129

[GRAPHIC] [TIFF OMITTED] T9682.130

[GRAPHIC] [TIFF OMITTED] T9682.131

[GRAPHIC] [TIFF OMITTED] T9682.132

[GRAPHIC] [TIFF OMITTED] T9682.133

[GRAPHIC] [TIFF OMITTED] T9682.134

[GRAPHIC] [TIFF OMITTED] T9682.135

[GRAPHIC] [TIFF OMITTED] T9682.136

[GRAPHIC] [TIFF OMITTED] T9682.137

[GRAPHIC] [TIFF OMITTED] T9682.138

[GRAPHIC] [TIFF OMITTED] T9682.139

[GRAPHIC] [TIFF OMITTED] T9682.140

[GRAPHIC] [TIFF OMITTED] T9682.141

[GRAPHIC] [TIFF OMITTED] T9682.142

[GRAPHIC] [TIFF OMITTED] T9682.143

[GRAPHIC] [TIFF OMITTED] T9682.144

[GRAPHIC] [TIFF OMITTED] T9682.145

[GRAPHIC] [TIFF OMITTED] T9682.146

[GRAPHIC] [TIFF OMITTED] T9682.147

[GRAPHIC] [TIFF OMITTED] T9682.148

[GRAPHIC] [TIFF OMITTED] T9682.149

[GRAPHIC] [TIFF OMITTED] T9682.150

[GRAPHIC] [TIFF OMITTED] T9682.151

[GRAPHIC] [TIFF OMITTED] T9682.152

[GRAPHIC] [TIFF OMITTED] T9682.153

[GRAPHIC] [TIFF OMITTED] T9682.154

[GRAPHIC] [TIFF OMITTED] T9682.155

[GRAPHIC] [TIFF OMITTED] T9682.156

[GRAPHIC] [TIFF OMITTED] T9682.157

[GRAPHIC] [TIFF OMITTED] T9682.158

[GRAPHIC] [TIFF OMITTED] T9682.159

[GRAPHIC] [TIFF OMITTED] T9682.160

[GRAPHIC] [TIFF OMITTED] T9682.161

[GRAPHIC] [TIFF OMITTED] T9682.162

[GRAPHIC] [TIFF OMITTED] T9682.163

[GRAPHIC] [TIFF OMITTED] T9682.164

[GRAPHIC] [TIFF OMITTED] T9682.165

[GRAPHIC] [TIFF OMITTED] T9682.166

[GRAPHIC] [TIFF OMITTED] T9682.167

[GRAPHIC] [TIFF OMITTED] T9682.168

[GRAPHIC] [TIFF OMITTED] T9682.169

[GRAPHIC] [TIFF OMITTED] T9682.170

[GRAPHIC] [TIFF OMITTED] T9682.171

[GRAPHIC] [TIFF OMITTED] T9682.001

[GRAPHIC] [TIFF OMITTED] T9682.002

[GRAPHIC] [TIFF OMITTED] T9682.003

[GRAPHIC] [TIFF OMITTED] T9682.004

[GRAPHIC] [TIFF OMITTED] T9682.005

[GRAPHIC] [TIFF OMITTED] T9682.006

[GRAPHIC] [TIFF OMITTED] T9682.007

[GRAPHIC] [TIFF OMITTED] T9682.008

[GRAPHIC] [TIFF OMITTED] T9682.009

[GRAPHIC] [TIFF OMITTED] T9682.010

[GRAPHIC] [TIFF OMITTED] T9682.011

[GRAPHIC] [TIFF OMITTED] T9682.012

[GRAPHIC] [TIFF OMITTED] T9682.013

[GRAPHIC] [TIFF OMITTED] T9682.014

[GRAPHIC] [TIFF OMITTED] T9682.015

[GRAPHIC] [TIFF OMITTED] T9682.016

[GRAPHIC] [TIFF OMITTED] T9682.017

[GRAPHIC] [TIFF OMITTED] T9682.018

[GRAPHIC] [TIFF OMITTED] T9682.019

[GRAPHIC] [TIFF OMITTED] T9682.020

[GRAPHIC] [TIFF OMITTED] T9682.021

[GRAPHIC] [TIFF OMITTED] T9682.022

[GRAPHIC] [TIFF OMITTED] T9682.023

[GRAPHIC] [TIFF OMITTED] T9682.024

[GRAPHIC] [TIFF OMITTED] T9682.025

[GRAPHIC] [TIFF OMITTED] T9682.026

[GRAPHIC] [TIFF OMITTED] T9682.027

[GRAPHIC] [TIFF OMITTED] T9682.028

[GRAPHIC] [TIFF OMITTED] T9682.029

[GRAPHIC] [TIFF OMITTED] T9682.030

[GRAPHIC] [TIFF OMITTED] T9682.031

[GRAPHIC] [TIFF OMITTED] T9682.032

[GRAPHIC] [TIFF OMITTED] T9682.033

[GRAPHIC] [TIFF OMITTED] T9682.034

[GRAPHIC] [TIFF OMITTED] T9682.035

[GRAPHIC] [TIFF OMITTED] T9682.036

[GRAPHIC] [TIFF OMITTED] T9682.037

[GRAPHIC] [TIFF OMITTED] T9682.038

[GRAPHIC] [TIFF OMITTED] T9682.039

[GRAPHIC] [TIFF OMITTED] T9682.040

[GRAPHIC] [TIFF OMITTED] T9682.041

[GRAPHIC] [TIFF OMITTED] T9682.042

[GRAPHIC] [TIFF OMITTED] T9682.043

[GRAPHIC] [TIFF OMITTED] T9682.044

[GRAPHIC] [TIFF OMITTED] T9682.045

[GRAPHIC] [TIFF OMITTED] T9682.046

[GRAPHIC] [TIFF OMITTED] T9682.047

[GRAPHIC] [TIFF OMITTED] T9682.048

[GRAPHIC] [TIFF OMITTED] T9682.049

[GRAPHIC] [TIFF OMITTED] T9682.050

[GRAPHIC] [TIFF OMITTED] T9682.051

[GRAPHIC] [TIFF OMITTED] T9682.052

[GRAPHIC] [TIFF OMITTED] T9682.053

[GRAPHIC] [TIFF OMITTED] T9682.054

[GRAPHIC] [TIFF OMITTED] T9682.055

[GRAPHIC] [TIFF OMITTED] T9682.056

[GRAPHIC] [TIFF OMITTED] T9682.057

[GRAPHIC] [TIFF OMITTED] T9682.058

[GRAPHIC] [TIFF OMITTED] T9682.059

[GRAPHIC] [TIFF OMITTED] T9682.060

[GRAPHIC] [TIFF OMITTED] T9682.061

[GRAPHIC] [TIFF OMITTED] T9682.062

[GRAPHIC] [TIFF OMITTED] T9682.063

[GRAPHIC] [TIFF OMITTED] T9682.064

[GRAPHIC] [TIFF OMITTED] T9682.065

[GRAPHIC] [TIFF OMITTED] T9682.066

[GRAPHIC] [TIFF OMITTED] T9682.067

[GRAPHIC] [TIFF OMITTED] T9682.068

[GRAPHIC] [TIFF OMITTED] T9682.069

[GRAPHIC] [TIFF OMITTED] T9682.070

[GRAPHIC] [TIFF OMITTED] T9682.071

[GRAPHIC] [TIFF OMITTED] T9682.072

[GRAPHIC] [TIFF OMITTED] T9682.073

[GRAPHIC] [TIFF OMITTED] T9682.074

[GRAPHIC] [TIFF OMITTED] T9682.075

[GRAPHIC] [TIFF OMITTED] T9682.076

[GRAPHIC] [TIFF OMITTED] T9682.077

[GRAPHIC] [TIFF OMITTED] T9682.078

[GRAPHIC] [TIFF OMITTED] T9682.079

[GRAPHIC] [TIFF OMITTED] T9682.080

[GRAPHIC] [TIFF OMITTED] T9682.081

[GRAPHIC] [TIFF OMITTED] T9682.082

[GRAPHIC] [TIFF OMITTED] T9682.083

[GRAPHIC] [TIFF OMITTED] T9682.084

[GRAPHIC] [TIFF OMITTED] T9682.085

[GRAPHIC] [TIFF OMITTED] T9682.086

[GRAPHIC] [TIFF OMITTED] T9682.087

[GRAPHIC] [TIFF OMITTED] T9682.088

[GRAPHIC] [TIFF OMITTED] T9682.089

[GRAPHIC] [TIFF OMITTED] T9682.090

[GRAPHIC] [TIFF OMITTED] T9682.091

[GRAPHIC] [TIFF OMITTED] T9682.092

[GRAPHIC] [TIFF OMITTED] T9682.093

[GRAPHIC] [TIFF OMITTED] T9682.094

[GRAPHIC] [TIFF OMITTED] T9682.095

[GRAPHIC] [TIFF OMITTED] T9682.096

[GRAPHIC] [TIFF OMITTED] T9682.097

[GRAPHIC] [TIFF OMITTED] T9682.098

[GRAPHIC] [TIFF OMITTED] T9682.099

[GRAPHIC] [TIFF OMITTED] T9682.100

[GRAPHIC] [TIFF OMITTED] T9682.101

[GRAPHIC] [TIFF OMITTED] T9682.102

[GRAPHIC] [TIFF OMITTED] T9682.103

[GRAPHIC] [TIFF OMITTED] T9682.104

[GRAPHIC] [TIFF OMITTED] T9682.105

[GRAPHIC] [TIFF OMITTED] T9682.106

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
